Office of Inspector General

U.S. Department of Labor
Office of Audit




                        IMPLEMENTATION OF
                  THE WORKFORCE INVESTMENT ACT'S
                       TRAINING PROVISIONS
                         IN SELECTED STATES




                                     Report Number: 04-03-017-03-390
                                     Date Issued:
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



                                          TABLE OF CONTENTS


ACRONYMS ............................................................................................................... iv

EXECUTIVE SUMMARY .......................................................................................... 1

INTRODUCTION ....................................................................................................... 5

RESULTS OF AUDIT ................................................................................................. 7

       WIA Participants Generally Received
       Appropriate Assistance and Training Options ............................................ 8

       The Numbers of WIA Participants Served
       and Trained Have Declined, as Compared to JTPA ...................................... 12

       Many States Struggled with
       Training Providers’ Eligibility .......................................................................... 19

       Restrictions Imposed by Local Boards
       May Affect the Quality of Training ................................................................. 30

CONCLUSIONS ......................................................................................................... 32

RECOMMENDATIONS ............................................................................................ 34

ETA’S RESPONSE TO THE DRAFT AUDIT REPORT .......................................... 35

ANALYSIS OF ETA’S RESPONSE ............................................................................ 36

ATTACHMENTS

ATTACHMENT A - DEMOGRAPHICS OF WIA PARTICIPANTS SERVED AND
              TRAINED IN SELECTED STATES DURING PY 2000

ATTACHMENT B - DISCUSSION OF THE METHODOLOGY USED TO
               COMPARE JTPA AND WIA PARTICIPANTS SERVED
               AND TRAINED




 U.S. Department of Labor – Office of Inspector General                                                                   ii
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



                          TABLE OF CONTENTS (Continued)


ATTACHMENT C - AVAILABLE FUNDS AND EXPENDITURES
               WIA ADULT PROGRAM- PY 2000 AND PY 2001

ATTACHMENT D - AVAILABLE FUNDS AND EXPENDITURES
              WIA DISLOCATED WORKER PROGRAM- PY 2000 AND 2001

ATTACHMENT E - SUMMARY OF WIA WAIVERS AT MARCH 5, 2003

ATTACHMENT F - NUMBER OF ELIGIBLE TRAINING PROVIDERS
               AND APPROVED PROGRAMS PY 2000 AND PY 2001

APPENDICES

APPENDIX 1 - OBJECTIVE, SCOPE AND METHODOLOGY

APPENDIX 2 – THE COMPLETE TEXT OF ETA’S COMMENTS TO
                      DRAFT AUDIT REPORT




 U.S. Department of Labor – Office of Inspector General                                   iii
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



                                            ACRONYMS


CFR                            Code of Federal Regulations
DOL                            U.S. Department of Labor
DW                             Dislocated Worker
ETP                            Eligible Training Provider
ETA                            Employment and Training Administration
FERPA                          Family Educational Rights and Privacy Act
FY                             Fiscal Year
GAO                            General Accounting Office
ITA                            Individual Training Account
JTPA                           Job Training Partnership Act
OIG                            Office of Inspector General
PY                             Program Year
SPIR                           Standardized Program Information Report
SSN                            Social Security Number
TANF                           Temporary Assistance for Needy Families
WIA                            Workforce Investment Act
WIB                            Workforce Investment Board
WIASRD                         Workforce Investment Act Standardized Record Data




 U.S. Department of Labor – Office of Inspector General                                   iv
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



                                  EXECUTIVE SUMMARY


Title I of the Workforce Investment Act (WIA) of 1998, which became effective
July 1, 2000, created a system of coordinated employment and training services and
activities to replace programs under the Job Training Partnership Act (JTPA). Under
WIA’s “consumer choice” concept, training services for adults and dislocated
workers (DW) are provided, with limited exceptions, through Individual Training
Accounts (ITA). ITAs are issued on behalf of individual participants, who select
training opportunities from lists of approved eligible training providers (ETPs)
maintained by the states and local workforce investment boards. In contrast, JTPA
training was generally provided through contracts or tuition payments to training
providers, either on an individual referral or group basis.

The Office of Inspector General (OIG) assessed training activities for WIA Program
Year (PY) 2000 Adult and DW programs in the States of Arizona, Delaware, Florida,
Mississippi, Ohio and Texas. Our objective was to determine the impact of WIA
training provisions on program participants, particularly as related to ITA and ETP
systems.


Results

Overall, we found WIA participants generally received appropriate assistance and
training options. A sample of participants who received training indicated all
received their choices of training. Further, 82 percent received consumer
information to help in choosing a training provider; 98 percent received training in
high-demand occupations, as determined by local workforce boards; and 78 percent
of participants who had left the program by the end of our fieldwork completed
their training, with nearly all obtaining either degrees or certificates in their fields of
study.

We also selected a separate sample of participants who were served by the WIA
program, but did not receive training. Of these, nearly three-quarters did not want
training. Generally, participants sampled received the employment assistance they
sought and found jobs.

However, the numbers of WIA participants trained has declined, as compared to
JTPA. While JTPA and WIA data are not directly comparable, they serve as useful
indicators of changes and trends associated with the transition from JTPA to WIA.
Our analysis of WIA PY 2000 performance data, in relation to JTPA PY 1998
performance, indicates the number of participants served decreased significantly, in



U.S. Department of Labor – Office of Inspector General
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



a majority of the states we visited. Five of the six states also indicated significantly
fewer WIA participants had been trained than under JTPA. In addition, the
proportion of WIA participants who were trained declined substantially from the
proportion trained in JTPA programs, in four of the six states.

A number of factors contributed to these declines, including some states’ slow
progress in implementing WIA. Also, some workforce boards interpreted WIA as
requiring "Work-First," which resulted in their directing participants to job search
and other activities instead of training. The availability of funding under Welfare-
to-Work (WtW), Temporary Assistance for Needy Families (TANF), and other non-
WIA programs was also cited as contributing to reductions in WIA participants
served and trained, although these competing funds were also available in the later
years of JTPA.

Many states struggled with training providers’ eligibility. Some of WIA’s training
provisions presented challenges that discouraged ETPs' participation, possibly
contributing to declines in training under WIA:

    •   Training providers must measure and report program performance not only
        for WIA students, but also for all students in programs attended by WIA
        participants. Providers with few WIA participants in a class were reluctant to
        gather data on all students to accommodate WIA reporting requirements. In
        addition, the cost of collecting the data often exceeded the benefit when few
        WIA participants were in a class.

    •   Local boards have the flexibility to establish ETP reporting requirements in
        addition to those imposed by the state. One provider we interviewed, with
        programs in several local boards, indicated he was required to submit 87
        reports annually in order to satisfy performance reporting requirements.

    •   Some providers were hesitant to disclose participant data necessary for WIA
        performance reporting and determination of providers’ subsequent eligibility
        for fear of violating provisions of the Family Education Rights and Privacy
        Act (FERPA). Although the Departments of Education and Labor have
        attempted to alleviate fears by issuing joint guidance, some providers
        remained skeptical and were reluctant to disclose participants' information.
        One state we visited, in an effort to avoid violating FERPA, had excused ETPs
        from submitting students' data if the training program served five or fewer
        students. In our opinion, this was inconsistent with WIA performance
        reporting regulations.




 U.S. Department of Labor – Office of Inspector General                                   2
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



Many training providers, and especially rural providers and public colleges and
vocational schools, found WIA reporting requirements taxing, and some
threatened to quit serving, or no longer serve, WIA-funded participants. Forty-three
percent of all providers we interviewed believed WIA's ETP reporting requirements
were burdensome.

In addition, because of their complexity, training provider eligibility determination
procedures were not fully in place in many states. The difficulty of implementing
WIA’s training provider eligibility determination procedures is reflected in the
number of waivers states have requested. As of March 2003, 27 states had petitioned
the U.S. Department of Labor (DOL), Employment and Training Administration
(ETA), for waivers of provisions or additional time to implement requirements.

Restrictions imposed by local boards may have affected the quality of training.
Overall, 37 percent of providers we interviewed (43 of 116) told us they had
modified program fees or course structures because of dollar or time restrictions on
ITAs. While not all modifications may have affected the quality of the training,
nearly one-third of the providers we interviewed indicated that dollar and time
limitations were not sufficient to complete the programs they offered.

Some providers expressed specific concerns over the modifications. One Texas
training provider, who had shortened the amount of class time for an existing course
to accommodate limitations on WIA students, believed that WIA students were not
as well prepared upon their graduation as classmates in the unaltered program.
Nonetheless, 62 percent believed the use of ITAs to finance participant costs was
more effective than procuring contracts for the exclusive training of program
participants, as often occurred under JTPA.


Recommendations

We recommend the Assistant Secretary for Employment and Training implement
recommendations for changes and improvements in the ITA and ETP processes that
can be accomplished without legislative or regulatory changes. Where
congressional action is required, we recommend that the Assistant Secretary solicit
the Secretary's assistance in encouraging the Congress to enact appropriate
legislative changes. Specifically:

          •   Seek support for changes in WIA’s provisions to encourage service
              providers’ participation.




 U.S. Department of Labor – Office of Inspector General                                   3
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



          •   Endorse changes to reduce the ETP burden associated with reporting
              data on non-WIA students.

          •   Encourage state and local governments to streamline reporting
              requirements for training providers that serve multiple boards.

          •   Support amendments to legislation that will eliminate uncertainty
              regarding liability for the release of personal identifying information for
              WIA reporting purposes.

          •   Encourage state governments to periodically review course structures to
              ensure restrictions and limits imposed on training providers do not
              jeopardize the quality of courses offered.


ETA’s Response to Draft Report

ETA indicates it agrees with findings discussed in this report and that many of our
findings are consistent with those of its own evaluations and other WIA studies.
ETA also commented that the proposed Workforce Reinvestment and Adult
Education Act of 2003 (H.R. 1261), now being considered by Congress, addresses the
issues we have discussed.

OIG’s Analysis of ETA’s Response

OIG agrees that the proposed Workforce Reinvestment and Adult Education Act of
2003 addresses several systemic problems, including the burdensome reporting
requirements for training providers and inconsistencies in interpretations of WIA’s
sequence of services criteria. However, if the proposed legislation is not enacted,
ETA should issue guidance to clarify the requirements for offering training to
eligible individuals.




 U.S. Department of Labor – Office of Inspector General                                   4
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



                                          INTRODUCTION

Background

WIA was enacted in 1998 and replaced previous job training and employment
programs provided through the JTPA. WIA and JTPA program delivery strategies
differ significantly. JTPA targeted economically disadvantaged adults and DWs for
services and training. Program operators often provided in-house training, as part
of the service strategy for all participants.

Under WIA, all adults and DWs are eligible for assistance. However, WIA
participants must complete a succession of core and intensive services, before they
may be offered training. Persons seeking help are initially referred to a One-Stop
center that may either contract for or provide individuals “core” or “intensive"
services. Adults not successful in finding employment after receiving core services,
such as initial assessment, job search and placement assistance, are generally eligible
for more intensive services, which may include counseling, and job-readiness
activities. Those who are unsuccessful in finding employment, or who cannot find
or retain employment that allows self-sufficiency, may be referred to training after
receiving core and intensive services.1

While local Workforce Investment Boards (hereafter WIBs or local boards)
participate in deciding the training available to participants, they are generally
prohibited from providing the training themselves. WIA promotes a client-driven
training system that allows program participants a role in deciding how WIA
training dollars are spent. It is intended that eligible participants receive some
degree of choice in selecting an approved program from a variety of ETPs, including
public and private institutions. With limited exceptions, WIA requires training
providers to be certified, either under national accreditation standards or through an
alternative procedure established by the governor.

ETPs are placed on the state list that participants use when choosing a training
program. Generally, training providers certified under national accreditation
standards were automatically eligible during the initial year under WIA. To remain
eligible, all providers must meet minimum performance levels established by the
state and local boards for WIA-funded students, and other students in an approved
program.


1
 Training requirements contained in WIA Section 134 and program regulations at 20 CFR Part 663 are further
discussed in the section of this report titled, "WIA's Work-First provisions contributed to reductions in the
numbers of participants trained.”



    U.S. Department of Labor – Office of Inspector General                                              5
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



Training providers must submit verifiable performance data to the local board to
show their achieved level of performance measures. Under WIA, the ITA was
established as the primary method of financing WIA participants’ training. The Act
allows payments from ITAs to be made in a variety of ways, including electronic
transfers, vouchers, or other methods deemed appropriate by the state. States or
local boards may establish restrictions on the amount and duration of ITAs. Five of
the six states we selected allowed local boards to establish limitations on ITAs.
Only the State of Delaware established specific limitations on ITAs.

WIA provides separate funding streams for the Adult and DW programs.
Appropriations for the Adult program remained the same, while funding of the DW
program decreased between PY 2000 and PY 2001. Appropriations for the Adult
program remained at $950 million for both years. The appropriations for the DW
program decreased from $1.589 billion to $1.412 billion.2 Reported state
expenditures for PY 2000 for the Adult and DW programs were $769 million and
$1,052 million, respectively. WIA appropriations are authorized for 5 years and
scheduled to expire September 30, 2003.

Criteria
Regulations at 20 CFR, Part 663, describe requirements relating to the services that
are available for Adults and DWs under Title I of WIA. These regulations also
contain program performance and reporting requirements.

WIA Public Law 105 – 220, Chapter 3 describes the activities for the program
providers at different levels; Chapter 5 describes the activities available for Adults
and DW; and Chapter 6 outlines the Act’s general provisions.




2
 In accordance with the Supplemental Appropriation Act, 2001, $177.5 million was rescinded from
the DW program for PY 2001.




    U.S. Department of Labor – Office of Inspector General                                  6
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



                                     RESULTS OF AUDIT


WIA training is provided through ITAs, a type of voucher system. However, some
training providers modified the structure of their programs to accommodate ITA
dollar or course length restrictions, but worried the alterations did not always
benefit participants.

Our audit indicates participants who were trained received their choice of courses,
were provided appropriate assistance and most obtained the degrees or
certifications they sought. We found those participants not trained typically did not
desire training and received the assistance necessary to obtain employment.
However, data shows the numbers of WIA participants trained have declined from
the numbers trained under JTPA, Labor’s primary employment assistance and
training program WIA succeeded. Further, comparison of the percentage of WIA
participants trained to those served indicates a decline from JTPA levels.

Some of the decline is related to difficulties grantees have experienced in
implementing systems and procedures to carry out WIA's provisions. More
restrictive WIA requirements for entry into training have also contributed to
reductions in the numbers of participants offered training. In addition, the
availability of other funding sources and artificial reductions caused by changes in
how participant activities are reported have played a part in the reductions.

States struggled with a variety of issues involving reporting of data for use in
determining training providers' eligibility. Particularly troublesome were
requirements that providers report program performance data for all students in
programs attended by WIA participants. Many training providers, including public
colleges and vocational schools, have found these and other WIA reporting
requirements burdensome and have either threatened to quit serving, or no longer
serve, WIA-funded participants. In many states, training provider eligibility
determination procedures are not in place; states have requested waivers or
extensions of time to implement them.

In addition, longstanding concerns over disclosure restrictions, intended to protect
students' privacy, have made some providers and states reluctant to disclose
information necessary to evaluate providers’ performance or measure programs'
success.




 U.S. Department of Labor – Office of Inspector General                                   7
Implementation of the Workforce Investment Act’s Training Provisions in Selected States




 WIA Participants Generally                               In the states visited, we determined who
 Received Appropriate                                     was being served by WIA programs and
                                                          if program operators had established
 Assistance and Training Options
                                                          procedures to assess participants' needs
                                                          and to help them make appropriate
                                                          training choices.

We also selected a sample of participants who received training, and reviewed the
assistance they received, the information and choices available to them, and their
accomplishments. In addition, we reviewed a sample of WIA participants who were
not trained to determine if they had received appropriate assistance and whether
they found jobs.

Participant demographics suggest a wide mix of various groups were served. We
relied on each of the six states we visited to provide demographic data on each of
the PY 2000 Adult and DW program participants who were enrolled and trained.
The data was requested for six participant characteristics, including disabled
individuals, minorities, females, individuals with less than a high school education,
those who met poverty-level or Lower Living Standard Income Level guidelines,
and workers 40 years of age and older.

                                                                                           Table 1

                         PERCENTAGE OF WIA PARTICIPANTS WITH
                     SELECTED CHARACTERISTICS IN THE STATES VISITED


                                                            Percentage of Participants

          Characteristics                                   Enrolled                      Trained

        Total Participants                                   100%                         52%
          Disabled                                             4%                         53%
          Minorities                                          62%                         51%
          Females                                             59%                         54%
         Less than 12th Grade Education                       18%                         42%
         Met Poverty Guidelines                               53%                         55%
         40 Years of Age and Older                            40%                         49%




 U.S. Department of Labor – Office of Inspector General                                              8
Implementation of the Workforce Investment Act’s Training Provisions in Selected States




Combined data for participants enrolled in the Adult and DW programs in the six
states we visited are summarized in Table 1 above. Attachment A contains data for
each of the states we visited.

Local boards had established procedures for assessing participants’ needs and
assisting them in choosing training. The WIA program intends to broaden
participants' access to information with which to make informed choices on training
options and providers. Program staff has a duty to help participants get the training
they desire, yet monitor entry into training and assure participants obtain suitable
training. Consequently, WIA program operators have what can be the conflicting
responsibilities of both advocates for participants' choices and gatekeepers that
control participants’ access to training.

The local boards we visited either had formal systems in place or established
practices that assisted participants in assessing their needs and choosing their
training. Participants who received training were assessed to determine their skill
level, interests and needs. In most instances, participants also had access to the state
lists of eligible training providers from which to choose a program.

Trained participants received their choices and were offered appropriate
assistance. We selected a sample of 120 participants, including 83 Adults and 37
DW program participants, who received training in the 6 states.

On average, training for the participants we sampled was scheduled to last about 7
months, and ranged from less than 1 month to as long as 28 months. In 89 cases (74
percent), a voucher was used to pay for the training. Thirty participants' training
was paid either through an invoice or individual contract, and one participant's
training was paid for by another program.

We reviewed the participants’ files and other documentation to determine whether
the participants:

            •   received their choice of training;

            •   were provided a “consumer report”3 to help them choose a training
                provider;

            •   received training in a high-demand occupation;

3
 The regulations at 20 CFR Section 663.570 provides for a consumer reports system to inform
customers of the one-stop delivery system about the performance of training providers and programs
in the local area.

    U.S. Department of Labor – Office of Inspector General                                   9
Implementation of the Workforce Investment Act’s Training Provisions in Selected States




         •    completed training; and

         •    received a certificate or degree.

                                                                                                                Figure 1

                                                           Participants Who Received Training (120)


                                                         100%
                       Percentage of Participants Who:




                                                         80%


                                                         60%


                                                         40%


                                                         20%


                                                          0%
                                                                Received   Trained in    Received      Exited
                                                                 Choice      HDO        Information   Program

                                                         100%    100%        98%           82%         78%




All participants in our sample received their choice of training from among
curriculums available in the areas served. Also, over four-fifths of our sampled
participants (98 of 120) received some consumer information to assist in selecting
training providers. We noted that 20 of 22 files lacking evidence participants had
received consumer information occurred in the State of Mississippi. According to
Mississippi officials, the State recently implemented a performance and reporting
system that now generates a consumer report.

All states had requirements in place that limited training to high-demand
occupations, subject to the funding limitations established by the local board.
Nearly all sampled participants (98 percent) were trained in high-demand
occupations, as determined by the local workforce boards.

As Figure 1 illustrates, 78 percent of the participants (93) we sampled left the
program, because they had completed their training or had departed for other
reasons, by the end of our fieldwork. Of the 93 participants who left the program, 78
percent (73 participants) completed their training, and nearly all of those who
completed training (72) obtained a degree or certificate.

 U.S. Department of Labor – Office of Inspector General                                                                    10
Implementation of the Workforce Investment Act’s Training Provisions in Selected States




Conversely, 22 percent of the participants (20) who left the program did not
complete their training curriculums. Nearly half of the participants (nine) who left
before their training was complete did so to accept a job. Most of the remaining
participants left for a variety of personal reasons. We found indications that only
two participants terminated because of poor performance.

Participants who chose not to be trained usually found jobs. We also reviewed a
smaller sample of 60 participants who had received core or core and intensive
services, during PY 2000, but had not been enrolled in training. We looked for
evidence that participants who were not trained had received adequate
consideration for training, as required by WIA regulations. We also contacted the
participants, when possible, to determine if they had requested but not received
training. Our sample included 36 participants from the Adult program and 24 DWs.

As Figure 2 illustrates, 73 percent (44 of 60 participants) made the decision not to
seek training. Of the 44 participants who decided not to seek training, 86 percent
(38 of 44) found jobs after receiving core, or core and intensive services. Generally,
available information indicated participants who did not receive training had
adequate job skills to re-enter the workforce. We found only two participants who
did not receive training because of a "work-first" philosophy. These two instances
involved Texas participants who were not willing to complete job-search activities
the workforce board required and left the program.

For 17 percent of our sample (10 participants), evidence indicates the program
operator made the decision not to train the participant. Five of these participants
were not trained due to a shortage of funds that involved the State of Delaware. In
the remaining five cases, counselors decided against training participants for various
reasons.

Finally, in 10 percent of cases (6 of 60), we could not determine whether the
participant or counselor made the determination not to seek training. All of these
cases occurred in the State of Mississippi, where documentation was insufficient for
us to interpret what had occurred and we were unable to interview the participants.




 U.S. Department of Labor – Office of Inspector General                                   11
Implementation of the Workforce Investment Act’s Training Provisions in Selected States




                                                                                             Figure 2

                                                  Participants Who Received Only
                                                   Core or Intensive Services (60)


                                                80%


                                Percentage of   60%
                                Participants
                                                40%


                                                20%


                                                 0%
                                                      Obtained    Training Counselor Unable to
                                                       a Job     Unwanted Objected Determine
                                                75%     75%        73%       17%       10%




                                                                           While there are a variety of
      The Numbers of WIA Participants                                      difficulties in making
                                                                           comparisons, WIA and JTPA
      Served and Trained Have Declined,
                                                                           program data indicate the
      as Compared to JTPA.                                                 numbers of participants served
                                                                           and trained have declined from
                                                                           JTPA levels.

We obtained information from the states we visited on the number of WIA Adult
and DW program participants served and trained during PY 2000, and compared it
to PY 1998 JTPA participant data. PY 2000 was the first complete year available to
compare WIA activities across states. Conversely, PY 1998 was the most recent year
in which JTPA programs operated in all states, as some states implemented WIA
"early" in PY 1999.

As Table 2 shows, four of the six states we visited served fewer participants under
WIA than under JTPA, and five of six states also reported substantial declines in the
number of WIA participants trained.4 Comparison of WIA and JTPA data also


4
 Comparisons of the data may provide useful indicators of trends. However, the accuracy and
compatibility of the data are limited by a variety of factors discussed in Attachment B of this report.
Consequently, the data in Table 2 should not be relied upon as precisely reflecting differences in the
numbers or percentages of change in WIA and JTPA participants served and trained.

    U.S. Department of Labor – Office of Inspector General                                              12
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



indicates that in four of six states, a smaller percentage of WIA participants who
were served received training than under JTPA programs.
                                                                                                 Table 2

                         COMPARISON OF THE JTPA AND WIA PROGRAMS
                     ESTIMATED NUMBERS OF PARTICIPANTS TRAINED/ SERVED


                                                                                        Percentage of
              Numbers of Participants            Numbers of Participants                 Participants
                     Served                            Trained                        Trained To Served


              JTPA        WIA                    JTPA       WIA
 States        PY          PY       Percnt.       PY         PY       Percent.
 Visited      1998        2000      Change       1998       2000      Change         JTPA        WIA
               (A)         (B)                    (C)        (D)                     (C/A)      (D/B)
    AZ         9,053      5,050      -44%        6,285      1,742       -72%              69%     34%
    DE         1,311        803      -39%        1,117        586       -48%              85%     73%
    FL        23,159     37,522       62%       11,057     23,589       113%              48%     61%
    MS        11,097      1,972      -82%        5,191      1,093       -79%              47%     55%
    OH        18,605      7,453      -60%       13,472      2,798       -79%              72%     37%
    TX        40,274     41,651        3%       28,765     18,919       -34%              71%     45%

With the exception of Florida, figures reported by the states we visited indicate
participants served under WIA declined by an average of 29 percent. Florida and
Texas reported an increase in the number served after the transition to WIA.
However, Florida was the only state that reported an increase in the number of
participants trained. On average, exclusive of Florida, the numbers trained declined
by 54 percent.

According to Florida officials, the State requires local boards to allocate at least 50
percent of WIA Adult and DW funds for training related activities, unless a State
waiver is obtained. In addition, Florida was an "early implementer" and PY 2000
was the second year of its WIA operations.

As mentioned, the proportion of WIA participants being trained has also
diminished, in most states we visited. When comparing WIA to JTPA, four states’
data indicated declines in the percentages of WIA and JTPA participants who were
trained. Differences ranged from 35 percent in Arizona (69 percent compared to 34
percent) to 12 percent in Delaware (85 percent compared to 73 percent).




 U.S. Department of Labor – Office of Inspector General                                          13
Implementation of the Workforce Investment Act’s Training Provisions in Selected States




Program officials and grantees offered a variety of reasons for declines in the
numbers of WIA participants trained when compared with JTPA programs. They
include the:

        •    adequacy of WIA funds to train participants;

        •    slow pace of WIA programs' implementation;

        •    application of WIA's “work-first” provisions; and

        •    availability of other funds and changes in reporting definitions.


Most States Had Adequate WIA Funds. Based upon financial information the
states reported to ETA, most states we visited still had a significant portion of their
PY 2000 and PY 2001 Adult and DW funds available at the end of each program
year, as Figures 3 and 4 illustrate. Only Delaware reported that a shortage of WIA
funds had prevented some participants from entering training.
                                                                                                         Figure 3


                                                                          Adult Program
                                                             Percentage of Expenditures to Allocations

                                                             100%
                           Expenditures as a Percentage of




                                                              80%
                                    Allocations




                                                              60%


                                                              40%


                                                              20%


                                                               0%
                                                                    NAT.   AZ    DE    FL    MS    OH    TX
                                                  PY 2000           58%    63%   80%   74%   45%   37%   70%
                                                  PY 2001           68%    75%   90%   70%   56%   61%   68%




 U.S. Department of Labor – Office of Inspector General                                                             14
Implementation of the Workforce Investment Act’s Training Provisions in Selected States




Nationally, states' PY 2000 expenditures averaged 58 percent and 50 percent of
PY 2000 available funds for the Adult and DW programs, respectively. In PY 2001, a
significant portion of many states available funds also remained unspent.
Nationally, PY 2001 expenditures were only 68 and 59 percent, respectively of Adult
and DW program available funds. Attachments C and D provide additional
information on the WIA Adult and DW programs’ available funds and
expenditures.5


                                                                                                          Figure 4


                                                                   Dislocated Worker Program
                                                             Percentage of Expenditures to Allocations

                                                              80%
                           Expenditures as a Percentage of




                                                              60%
                                    Allocations




                                                              40%


                                                              20%


                                                               0%
                                                                    NAT.   AZ    DE    FL    MS    OH    TX
                                          PY 2000                   50%    50%   78%   69%   36%   41%   62%
                                          PY 2001                   59%    62%   80%   76%   34%   54%   71%




Delaware's WIA expenditure rates were higher than the national average and the
highest among the states we visited, although training programs were augmented
with State funds. By year's end, Delaware reported spending at least 78 percent of
both its Adult and DW available funds, for both PY 2000 and PY 2001.

A Delaware official believes WIA training, funded through ITAs, has resulted in
higher average training costs than experienced in the JTPA programs. The program
official's comments suggest training has shifted from less extensive JTPA-supported


5 Expenditures shown in the tables and in Attachments C and D are taken from Quarterly WIA
Spending Reports submitted to ETA for the respective periods and include carryover of funds from
prior years.

 U.S. Department of Labor – Office of Inspector General                                                              15
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



training to longer-term, more expensive training offered under WIA. According to
the official:

        It is important to recognize that there was a considerable increase
        in the cost per enrollment from JTPA to the Workforce Investment
        Act. JTPA trainees were generally trained in contracts that
        provided short-term training at a lower unit cost. With the use of
        the ITA, the cost rose. This was particularly true in the first year
        PY 2000 when the maximum ITA cost was $4,700. This in part
        accounts for the larger number of trainees in JTPA.

However, we found Delaware’s shortage of training funds was also due, in part, to
inadequate financial controls over ITAs. In Delaware, WIA-funded training was
suspended for approximately 4 months during PY 2000, because unneeded funds
remained in individual ITA balances. Because the Board had committed all of
WIA’s training funds during the first 4 months of PY 2000, further training had to be
suspended until additional funding could be identified.

The State subsequently requested the Board review participant accounts to
determine if any amounts could be made available to other participants. The Board
identified unspent funds in ITA accounts, the training moratorium was lifted and
additional WIA participants were enrolled. Delaware has since established
procedures that should allow them to avoid a similar situation from occurring,
including quarterly reviews of ITAs to determine amounts available for
redistribution.

Shortages of training funds did occur among local boards in other states. However,
these shortages were alleviated by redistributing funds from other boards or
transfers between the Adult and DW programs, in accordance with WIA provisions.

The slow pace of WIA programs' implementation by several states contributed to
fewer participants being enrolled and trained. Three states we visited experienced
delay in establishing ITA systems, at the state or local levels.

Arizona officials attributed their State’s decline in the number of participants trained
under WIA to a slow start implementing the WIA program, as did Mississippi, who
postponed WIA enrollments until January 2001. Mississippi program officials
explained:

        A good deal of time for the first six months was spent in setting up
        local workforce areas, appointing the boards, selecting the One-Stop
        operators and establishing our one-stops operators. We really weren’t
        fully operational until January 1, 2001.

 U.S. Department of Labor – Office of Inspector General                                   16
Implementation of the Workforce Investment Act’s Training Provisions in Selected States




Similar problems occurred at some local workforce boards in putting the WIA-
mandated mechanisms in place to train participants. One Ohio local board did not
establish ITAs until April 2001, 9 months after all states were to have implemented
WIA. Local board officials cited lack of guidance from the State as the main reason
for the slow transition to an ITA system. Prior to April 2001, participants used
individual contracts (Skill Training Master Contracts) to obtain training, rather than
ITAs.

WIA's Work-First provisions contributed to reductions in the numbers of
participants trained. Program officials in several states we visited indicated the
perception of WIA's "work-first" requirements was a factor that contributed to
declines in participant training. Fundamental differences in program delivery
philosophies of the WIA and JTPA programs are reflected in WIA requirements for
access to training services.

 JTPA did not place conditions on participants, in order to qualify for training, other
than overall eligibility requirements for participation in a particular program. While
WIA’s assistance is available to the public, Section 134 of the Act and program
regulations at CFR 20 Part 663, established a three-tiered system of requisites for
participants to qualify for WIA training services.

        •    Core services are the basic assistance provided to an adult or eligible DW
             through the One-Stop delivery system, and include such activities as
             initial assessment and job search assistance.

        •    Intensive services (e.g., diagnostic testing, specialized assessment,
             development of an employment plan, relocation assistance or a work
             internship) may be provided an adult or DW who has received at least one
             core service, and has been unsuccessful in either finding or retaining
             employment that leads to self-sufficiency.

        •    Training may be provided to a participant who has received at least one
             intensive service, has been unable to either obtain or retain employment
             with the assistance of intensive services, has been evaluated as needing
             the training, and is deemed to have the skills and qualifications for
             successful completion of the selected training program.

While the Act and regulations establish a series of decision points that must be
satisfied before a participant can be offered training services, they do not prescribe
how the requirements are to be implemented. Policies, such as the amount of job-



 U.S. Department of Labor – Office of Inspector General                                   17
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



search effort required of participants before the service provider considers them
unlikely to find a job, are left to the states' and local boards' discretion. Participants
also have to be deemed likely to complete training before being enrolled, but the
requirements for making this determination are also left to state and local officials.

Among the sites we visited, there were varying interpretations of WIA's training
eligibility provisions. However, we found a strict "work-first" emphasis in some
location that made training a last choice option.6

For example, notes in a participant's file at the Heart of Texas Workforce
Development Board indicate the counselor advised the participant "the WIA
program is designed for 'Work First.'” The Board's manual for guidance in
managing the WIA program also emphasized a work-first expectation, and
contained the following direction (emphasized in bold print) to its program staff,
"Individuals may transition to training services as a last resort, when all efforts for
job placement have been unsuccessful."

Delaware required Adult program participants to meet low-income requirements.
In other states, this option was left to the local boards. The State required an
unsuccessful 4-week work search period, by its participants, before training was
offered. However, program officials discounted the impact of the work search
requirement on the numbers of participants who received training. A State program
administrator commented to us:

           Most individuals who obtain employment, as a result of the required
           job search period, continue to be eligible for training services because
           nearly all of them need training to enable them to attain employment
           at the self-sufficiency level.

Some states indicated they recently liberalized their policies to focus more on
training that results in high wages and high-skilled jobs.

The availability of other funds and changes in reporting definitions also
accounted for reductions in the numbers of WIA participants identified as trained.
Differences in the definitions applied to some JTPA and WIA program activities
have contributed to fewer participants being reported as trained. Some participant



6
 GAO also found the Work-First emphasis of some local workforce areas reduced the number of
people registering in the DW program. “Better Guidance Needed and Revised Funding Formula
Would Enhance the DW Program.” (GAO 02-274, February 2002)




    U.S. Department of Labor – Office of Inspector General                                18
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



activities that were considered training under JTPA are considered "intensive
services" under WIA.

For example, internships and work experience activities, classified as intensive
services under WIA, were formerly reported under JTPA as training. Work
experience was offered in Arizona as an intensive service for some participants.
Arizona reported about 3 percent of WIA participants served (140 of 5,050) were
involved in work experience in PY 2000.

Although we found little of this activity in the states we visited, service activities
formerly identified as training may play a bigger role in the service delivery
strategies of other states.

Finally, some Federal and state officials attributed a portion of the decline in training
to competition from other recently enacted social assistance programs. Cited were
appropriations made for other Labor funded programs that emerged in the late
1990s, such as WtW, and funds provided for similar purposes by other Federal
agencies, such as TANF7 grants. They believe the TANF program served some
participants who would have otherwise looked to the WIA program for assistance.

However TANF and WtW programs were active during the later years of the JTPA
program. Consequently, the impact of TANF and WtW programs should have also
been reflected in reductions to JTPA participant training figures to some degree.


                                   Several of the states we visited have experienced
    Many States                    difficulty in applying WIA's complex procedures
    Struggled With Training        for determining providers’ eligibility. As a
    Providers’ Eligibility         consequence, many states have asked for
                                   waivers of the requirements. In addition,
program operators and training providers expressed concern that some of WIA's
provisions may be limiting participants' training choices by discouraging providers
from training WIA participants.


7
  TANF is administered by the U. S. Department of Health and Human Services. The Balanced Budget Act of
1997 amended certain TANF provisions of the Social Security Act and authorized the Secretary of Labor to
provide WtW grants to states and local communities for transitional employment assistance, to move the hard–
to-employ TANF recipients to unsubsidized jobs and self-sufficiency.




    U.S. Department of Labor – Office of Inspector General                                            19
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



Eligibility determination procedures applied to WIA training providers are
complex. WIA's provisions that were established to provide participants with
information useful in choosing a training provider also impose eligibility
requirements on providers who wish to serve WIA-funded Adult or DW program
participants.

Section 122 of WIA and Labor's implementing regulations at 20 CFR Section 663.540,
identify procedures for establishing training providers' initial and subsequent
eligibility to serve WIA participants. Training providers applying for placement on
the ETP list must agree to submit performance and cost data on their programs.
Data submitted by training providers is used to determine if established program
performance levels have been met, as a condition for providers remaining eligible in
the subsequent year.

ETP performance data also provides participants with information to make
informed choices in selecting programs and vendors. Local workforce boards are to
review providers' applications and submit those they have approved to the state.
The state is to check the performance data, create a consolidated statewide
"consumer report" that includes each eligible provider’s performance and cost data,
and make it available to each local area. Consequently it is critical that ETP
performance data be available in a timely manner for use by participants in selecting
a training provider.

Performance information is required for all students served by a program, including
WIA-funded students. Outcomes to be reported for all students include: (1) the
percentage of those who completed training; (2) the percentage who obtained
unsubsidized employment; and (3) their wages at placement.

In addition, performance information is required to be reported for WIA-funded
participants, including: (1) the percentage who completed training and obtained
unsubsidized employment; (2) the percentage who completed training and were in
unsubsidized employment 6 months after placement; (3) the wages of those who
completed training (determined 6 months after their employment began); and (4)
where appropriate, the percentage of participants who obtained a degree,
certification, license or other expected achievement.

Table 3 summarizes the WIA program performance measures established for WIA-
funded students and other students served by an ETP.




 U.S. Department of Labor – Office of Inspector General                                   20
Implementation of the Workforce Investment Act’s Training Provisions in Selected States




                                                                                          Table 3

                          REQUIRED PROGRAM PERFORMANCE MEASURES
                            FOR SUBSEQUENT ETP DETERMINATIONS



                WIA-Funded Students                                     All Students

      Employment Rate of Completers                          Program Completion Rate
      Employment Retention Rate - 6 mos.
                                                             Employment Rate of Completers
      After Start of Employment
      Completers' Wages - 6 Mos. After
                                                             Wages at Job Placement
      Start of Employment
      Rate of Licensures, Certificates or
      Degrees (where appropriate)

According to the Act, applicants who submit information required by a local board
are automatically eligible, if they are postsecondary educational institutions that
offer degree or certification programs and are eligible for funds under the Higher
Education Act.8 The Act allowed states up to 18 months to complete their initial
eligibility determination of training providers.

Of the six states in our audit, Arizona and Texas chose 12 months to complete this
process, while Delaware, Florida, Mississippi, and Ohio chose 18 months.
Regardless of the time period chosen, all states were required to complete this
process by December 1, 2001. However, as we later discuss, many states have
requested waivers extending this deadline.

Other providers may be required to provide cost and student outcomes information
(exclusive of new programs) that demonstrates they have met established
performance levels. Once the initial eligibility period has lapsed, subsequent
eligibility determinations are applied to all training providers who wish to remain
on a state’s ETP list.

ETP requirements have not been fully implemented in most states we visited.
Five of the six states we visited have petitioned ETA for waivers of certain ETP

8
  Generally, the definition encompasses most colleges, universities, and vocational and technical
schools. Also excused from initial eligibility determinations are entities providing approved
apprenticeship programs under the National Apprenticeship Act and new providers not offering
training at the time they applied for initial eligibility.


    U.S. Department of Labor – Office of Inspector General                                     21
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



provisions, or have requested additional time to implement the requirements.
Specifically:

             •   Arizona requested time to create a process for developing training
                 materials, conducting statewide training sessions, and ensuring
                 communication of its internet-based ETP application system.

             •   Florida 's first year performance data did not contain statistically valid
                 numbers for the State to establish performance measures. Therefore,
                 the State did not have appropriate information to make thoughtful
                 decisions about which training providers should be certified. Florida
                 indicated an additional year of performance data was necessary to
                 effectively implement the ETP performance measurement process. At
                 the time we completed our fieldwork, the State had not established
                 performance levels for its ETPs.

             •   Ohio's system for processing training providers’ performance data has
                 not been established. The initial system was not able to collect the data
                 needed to evaluate training providers' performance. A new State
                 system was under development, but was not in place by the time we
                 had completed our fieldwork. Ohio applied for a waiver to improve
                 WIA performance information and increase the accountability of
                 training providers in determining subsequent eligibility.

             •   Mississippi's One-Stop centers completed WIA intake forms and
                 maintained a manual system for ETP performance. The State realized
                 the data was incomplete and inaccurate after it ran the first quarterly
                 performance report. Mississippi requested additional time for the
                 State, workforce boards and training providers to collaborate and
                 coordinate systems, review alternative sources of data, compile the
                 required data and complete a variety of activities associated with
                 performance measurement.

             •   Texas filed a recent waiver (approved January 3, 2003) requesting an
                 extension of the initial training provider eligibility by waiving the 18-
                 month subsequent eligibility determination.

The status of implementation in the states we visited mirrors what has been
reported nationally, as many states did not have procedures in place for determining
ETPs subsequent eligibility. In February 2002, ETA acknowledged the problems
associated with collecting required performance data needed to evaluate training
providers. In a letter to the states, ETA advised:


 U.S. Department of Labor – Office of Inspector General                                   22
Implementation of the Workforce Investment Act’s Training Provisions in Selected States




          Many states have cited difficulty fully implementing the eligible
          training provider programs under WIA. While most provisions
          relating to the eligibility of providers are excluded from waiver
          authority, we interpret WIA waiver authority to permit the waiver
          of administrative requirements associated with eligible training
          provider determination. For example, we believe authority exists to
          extend the time limitation on the period of initial eligibility through
          a waiver of 20 CFR 663.530.

As of March 5, 2003, 27 states had requested a total of 31 waivers requesting
exclusion from some provider eligibility provision or requested additional time to
implement the requirements. Of the 31 waiver requests, 22 had been approved, 6
were under consideration for approval by ETA, and the remaining 3 waivers were
denied, withdrawn, or other action taken. See Attachment E for a listing of the
waivers and a brief discussion of each.

Program officials believe performance reporting requirements threaten training
providers’ willingness to serve WIA participants. In the states we visited, many
WIA program administrators and training providers shared concerns that ETP
reporting requirements, which are intended to help ensure the integrity and
effectiveness of training programs, may be limiting participants' training alternatives
by discouraging training providers from serving WIA participants.

The chief complaint was data that providers must gather to satisfy reporting
requirements, involved students' activities. As previously mentioned, the Act and
its implementing regulations, require WIA training providers to annually submit
verifiable program completion, job placement, and wage data for all students in a
training program. Consequently, a training provider with just one WIA-funded
participant in a class must also collect and submit specific data on all of the WIA
participant's classmates.

Many state and local program officials expressed dissatisfaction with the
requirements. In discussing the ETP reporting requirements, a Texas program
official indicated:

        While we understand the logic behind the requirements to report
        on the “all” student population, this requirement creates a
        tremendous burden for many training providers and ultimately
        does not serve our customers well.

The Texas official's comments were echoed by several other state and local program
administrators in other states we visited. Program officials indicate some training

 U.S. Department of Labor – Office of Inspector General                                   23
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



providers are unwilling to invest the additional effort and expense of gathering the
information on all participants, especially when WIA participants represent a
minority of the students in a class.9

Arizona officials indicated they lost two major providers that served participants
from the City of Phoenix WIB. However, the WIB was able to replace these
providers with what appeared to be other major providers. Also, according to an
official at this Board, some providers restrict the number of programs they are
willing to offer WIA participants, because additional offerings add to providers’
burdens of reporting data on both WIA participants and other students enrolled in
the program.

Access to existing educational structures and facilities is a linchpin in WIA's
objectives of improving participants’ alternatives and offering better training.
Consequently, program officials' concerns that some locally-based community
colleges and vocational schools were among the most disenchanted with WIA
reporting requirements are particularly disturbing. Mississippi officials indicated
attracting training providers had not initially been a problem, as community
colleges provide more than 80 percent of WIA training; however, their continued
participation may be at issue. A Mississippi program officials commented:

           I do think that both [the ITA and ETP] systems have been difficult
           to implement, and have had some negative consequences. The
           largest single problem is the [WIA] requirement that performance
           data be collected for all participants, not just those in WIA. This is
           a tremendous burden for our state’s community and junior college
           system, and is so impractical that in the future they may choose to
           not serve WIA participants.

Training providers also expressed frustration with reporting requirements. As
with state and local program officials, training providers frequently voiced concern
about WIA reporting requirements. Overall, 43 percent of training providers we
interviewed (50 of 116) characterized WIA’s data collection and reporting
requirements as burdensome. Colleges, universities and public vocational schools
comprised 60 percent of the providers (30 of 50) who had grievances.

Frustration with the requirements was expressed in a letter prepared by a
community college in Ohio, dated March 1, 2002. The College had over 20,000


9
 Similar concerns were expressed in the GAO report that addressed WIA implementation issues. GAO,
“Workforce Investment Act Better Guidance Needed to Address Concerns Over New Requirements” (GAO-
02-72, October 2001)


    U.S. Department of Labor – Office of Inspector General                                   24
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



students enrolled in classes each quarter, of which 185 were identified as WIA-
funded participants. According to a college administrator:

          We are both confused on some issues and concerned that we will
          not be able to provide some data. This could potentially lead to
          being removed as an Eligible Training Provider. . . .

The letter discussed a variety of concerns, including standards for judging training
programs' effectiveness, when small numbers of WIA students are enrolled. The
author discussed the possibility of having two WIA-funded participants in a
technology program, one of whom failed to complete the curriculum. The program
would not meet the established performance completion threshold of 75 percent and
would risk being dropped from ETP status. According to the letter, "Clearly,
programs with small enrollments of WIA participants are problematic."

Also of concern is the proportion of rural providers disenchanted with WIA
reporting requirements. Forty-two percent (21 of 50) of the providers who felt
reporting requirements were burdensome, served rural areas. The states we visited
typically had several providers operating programs in an urban area. However, in
many rural areas, WIA participants had significantly fewer training alternatives. If
rural providers are discouraged from WIA participation in areas with few training
alternatives, the impact on participants may not be just a reduction in training
choices, but the loss of any training options.

Local reporting requirements also contribute to reporting burdens. Training
providers may be required to comply with locally established performance
standards and submit performance reports to numerous WIBs. We identified
instances in which local WIA reporting requirements substantially increased
burdens on providers who served several boards.

We obtained comments from one Texas provider who serves students in several
workforce boards' jurisdictions. Each board negotiates performance standards with
the training provider, and the training provider is required to report performance
data to each. Consequently, the provider indicated for WIA programs alone, he
must annually submit 87 reports on performance outcomes.

A Texas program official defended the practice by indicating;

          The intent of WIA is that providers apply to the Board(s) for the
          area(s) in which they wish to offer services. Each Board has the
          right under law to annually specify their local application and
          reporting requirements, which may include requirements that
          exceed the State’s minimum requirements.

 U.S. Department of Labor – Office of Inspector General                                   25
Implementation of the Workforce Investment Act’s Training Provisions in Selected States




While the agreements may provide local boards with the flexibility of establishing
standards that satisfy local needs, they may also discourage training providers from
participating in the WIA program. However, we believe providers should have
other options available to them that would lessen the burden of submitting
performance reports to multiple boards.

Difficulties in gathering participant follow-up data and concerns over disclosure
restrictions are continuing issues. As previously discussed, ETPs are responsible
for providing verifiable student performance information to the states. Some states
utilize systems already in place to gather ETP performance data, such as those that
state educational agencies maintain for purposes of accreditation.

Other states offer ETPs assistance by matching student information with
Unemployment Insurance (UI) wage history files, in order to help them obtain
required performance information. However, states’ UI wage files often do not
contain complete information on all individuals who are employed. Typically
absent are the wages of workers who have moved out of state, are self-employed,
independent contractors, employed by the Federal Government, are military
personnel or Postal workers.

Further, there are significant time lags, often of 6 months or more, in the availability
of UI wage data. Consequently, personal contacts with students are often required,
in order to obtain accurate timely performance data for determining ETPs’
eligibility, as well as for participants’ use in consumer reports.

Also, some program administrators’ and training providers' apprehensions continue
over liability related to participant information gathered for ETP reporting. Some
are concerned that procedures for collecting participant information necessary to
determine program performance violates FERPA. FERPA intends to protect
information from improper disclosure by prohibiting educational institutions, with
certain exceptions, from disclosing personal identifying information contained in a
student's records, without prior written consent.

ETPs are reluctant to disclose students’ identifying information, such as Social
Security Numbers (SSN), necessary to match state's UI wage files for performance
reporting purposes. Students' SSNs are "personal identifying information," within
the meaning of FERPA. Consequently, some providers and states are wary of using
the data and risking potential lawsuits for violating participants' rights.

Because of longstanding concerns over violating FERPA provisions in satisfying
WIA reporting requirements, the Departments of Labor and Education issued a joint
memorandum dated January 19, 2001. The memorandum provides a protocol for

 U.S. Department of Labor – Office of Inspector General                                   26
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



collecting the data and offers assurances data can be released on WIA-funded
participants and other students, without violating FERPA.10 However, training
providers and state agencies remain cautious about the use of student’s SSNs and
other identifying data, despite the memorandum. In a July 2002 letter, the Texas
Workforce Commission indicated confusion and disagreement continue among
government agencies. According to the correspondence:

        The Texas Higher Education Coordinating Board (THECB), with
        the direction of the U.S. Department of Education (DOE), has taken
        the position that as an educational agency, it has no authority to
        release individual student information without individual waivers
        signed by the students. The position has been taken despite the
        joint letter from DOE and the U.S. Department of Labor (DOL)
        regarding the release of individual student information and WIA.
        The Agency has reached a compromise with THECB to obtain
        aggregate information.

Some states, such as Arizona, have responded to the uncertainty by limiting
providers' reporting requirements to programs that have more than an established
number of participants. The policy is described in a letter from Arizona to a local
workforce board.

        As you may be aware when training providers submit student data
        to re-certify their training programs to the Eligible Training
        Provider List (ETPL) they do not have to submit such data for any
        training program having a student universe of five (5) or fewer
        students. This policy is intended to protect the privacy of
        individual students, as required under the Workforce Investment
        Act [Section 136(f)(3)] and the General Education Provisions Act
        [20 USC 1232g, Section 444] added by the Family Education Rights
        and Privacy Act (FERPA) of 1974. The state's criterion requiring a
        student universe greater than five (5) students helps to ensure that
        each student's personal data, such as student's wages, will not be
        compromised.

However, Arizona’s policy is inconsistent with WIA program regulations at 20 CFR
663.540 (a)(1)(i), which requires ETPs to report performance data on all students in
the training program.



 ETA developed a draft guide offering suggestions for possible solutions titled "Technical
10

Assistance Guide, Addressing Subsequent Eligibility Implementation Issues," dated March 25, 2002.


 U.S. Department of Labor – Office of Inspector General                                     27
Implementation of the Workforce Investment Act’s Training Provisions in Selected States




The loss of training providers and programs was most evident in Texas. Despite
significant dissatisfaction over the reporting requirements by the program officials
and training providers we visited, only program data from Texas indicate
reductions in both the numbers of eligible training providers and available training
programs, from inception of the WIA program through PY 2001. See Attachment F
for a table of numbers of approved programs in each state.

Texas' data indicates a drop of 14 percent in the numbers of WIA training providers,
from PY 1999 to PY 2001,11 and Delaware experienced a 7 percent reduction between
PY 2000 and PY 2001. However, as Figure 5 illustrates, the numbers of eligible
training providers in the remaining states increased between PY 2000 and PY 2001.

Texas also was the only State for which data was available that offered fewer
training programs. From PY 1999 to PY 2001, the number of available training
programs declined by 54 percent (from 7,666 to 3,539). However, as shown in
Figure 6, most of the remaining states, where information was available, reported
gains in the number of available programs. 12
                                                                                    Figure 5


                                                      Numbers of Eligible
                                                      Training Providers
                                               500
                             NUMBER OF ETPs




                                               400

                                               300

                                               200

                                               100

                                                0
                                                     AZ   DE   FL    MS OH    TX
                                              1999                            335
                                              2000 141    41   190   33   379 308
                                              2001 167    38   194   92   486 287




11
  Texas implemented WIA early, because data were available for PY 1999, we have included it.
12
  Information was not available in the States of Florida or Ohio to compare the number of approved
programs.


 U.S. Department of Labor – Office of Inspector General                                        28
Implementation of the Workforce Investment Act’s Training Provisions in Selected States




                                                                                   Figure 6


                                                  Number of
                                              Approved Programs


                                      8,000

                                      6,000
                          NUMBER OF
                          PROGRAMS




                                      4,000

                                      2,000

                                         0
                                               AZ     DE        MS        TX

                                      1999                              7,666
                                      2000 1,000     210       208      4,422
                                      2001 1,097     315       472      3,539




The number of training providers and programs operated under JTPA were not
available and we were unable to determine if the numbers of WIA providers had
declined from those available to serve JTPA participants. However, Texas lost 48
providers and 4,127 approved WIA programs between PY 1999 and PY 2001. Texas
officials attributed the sharp declines to ETP reporting requirements and the
realization that many WIA training programs initially proposed were not needed.

          Reporting requirements were one of several factors that led to the
          decreased number of certified programs. In other cases, providers
          opted to apply to fewer Boards and/or to seek recertification for
          fewer programs that were perceived as being in greater demand by
          WIA-supported clients.

Declines in the numbers of providers and programs Texas reported agrees with
program operators' and training providers' assessments in the states we visited, but




 U.S. Department of Labor – Office of Inspector General                                       29
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



it conflicts with other states' data. The declines seems to be more a reflection of the
Texas WIA program’s maturity, than an indication that the ETP reporting
requirements impact was limited to the State of Texas.

Texas implemented WIA early, in PY 1999. Mississippi and Ohio had large
increases in WIA providers or programs from PY 2000 to 2001. However, they
began WIA operations in PY 2000, and were among the states that were slow in
implementing WIA. They also reported spending the smallest proportion of their
PY 2000 WIA available funds. States slow in implementing WIA and its ETP
requirements should also have had fewer approved training providers in their initial
year of operation.

                                       WIA allows state and local boards the
 Restrictions Imposed by               flexibility of determining limitations on ITAs.
 Local Boards May Affect               ITAs represent significant investments in
 the Quality of Training               participants' training. None of the sites we
                                       visited provided cash payments, credit cards or
debit cards to participants for the purpose of securing training from a provider.
Usually, a case manager approved an ITA after the caseworker had referred the
participant to training. Participants were provided vouchers and presented them to
training providers, thus indicating the local boards approval to pay for a
participant's training.

Once vouchers were submitted, payments were usually made directly to the
provider, in accordance with the provider’s normal billing cycle or after the
participant had completed training. States usually redistributed ITA balances to the
appropriate program after participants left training, so the funds could be used for
other program purposes.

There was much variation on the limitations applied to participants' ITAs in the
States and localities we visited, as Table 4 indicates. Limitations established for ITAs
at local boards visited ranged from a low of $3,500 to a high of $14,000, over a 2-year
period.

The majority of officials we interviewed believed WIA funding was adequate, and
that dollar and duration limitations established for WIA programs were reasonable.
However, Delaware officials cited the increased costs of providing WIA training
through ITAs as one cause of shortages.

We also interviewed 116 training providers associated with the WIA program in PY
2000 and obtained their views on whether established ITA funding and time
limitations were adequate to train participants. Overall, 69 percent (80) of the


 U.S. Department of Labor – Office of Inspector General                                   30
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



providers indicated that dollar and time limitations were sufficient to complete the
programs they offered. Also, 62 percent believed the use of ITAs to finance


                                                               Table 4
               LOCAL WORKFORCE INVESTMENT BOARD RESTRICTIONS ON ITAS

              State                      WIB                    Dollar Limit        Time Limit

           Arizona         City of Phoenix                     $4,000

                           Gila Pinal                          None13 (Adult)       2 years
                                                               $6,000 (DWs)
           Delaware        Delaware WIB                        $8,200               2 years14
           Florida         Panama City                         $6,000               None

                       Chipola                                $5,000                2 years
           Mississippi Hinds County                            $3,500
                                                                                    None
                           S. Central MS                       $6,500
           Ohio            Montgomery County                   $10,000 (Adult) 2 years
                                                               $14,000 (DWs)

                           Stark/Tuscarawas Counties           None15               None
           Texas           WorkSource                          $10,000              None

                           Heart of Texas                     $ 5,000               2 years



participant costs was more effective than procuring contracts for the exclusive
training of program participants; a method more commonly used under JTPA.

However, 37 percent of providers we interviewed (43 of 116) told us they had
modified program fees or course structures because of dollar or time restrictions on
ITAs. With the exception of Ohio, where only one provider reported changes to
accommodate WIA students, the number of providers who modified their existing
programs ranged from 7 to 11 in the remaining states. Typically, they reduced the
duration of the training and course content, or segmented programs so participants
with ITA-related restrictions could attend.
13
   No dollar limitation has been established, however, no participant we sampled had an ITA that
exceeded $4,000.
14
   Part-time students were allowed 3 years to complete training. The maximum allowed for training,
in PY 2000, was $4,700. The amount was reduced to $3,500 in PY 2001.
15
   No participant in our Stark/Tuscarawas sample had an ITA exceeding $4,000 or 2-year’s duration.



 U.S. Department of Labor – Office of Inspector General                                          31
Implementation of the Workforce Investment Act’s Training Provisions in Selected States




Some providers believed limitations had affected the quality of training provided
WIA participants. To illustrate:

    •   A Mississippi provider altered an existing program into a three-stage
        curriculum, with basic, intermediate and advanced levels. This allowed WIA
        students to advance to the next affordable level of the program and
        participants received a certificate upon completion of each component of the
        program. However, the provider was concerned about students who did not
        complete the entire program and adequately master all necessary skills. The
        provider also worried the alterations might affect its reputation, particularly
        with WIA participants' future employers.

    •   A Texas provider stated they had to shorten the amount of class time for an
        existing course to accommodate limitations on WIA students. The provider
        believed that WIA students were not as well prepared upon their graduation
        as classmates in the unaltered program.

Other providers indicated they gave WIA participants’ discounts on tuition charged
to the public, in order to allow them to receive training. For example, a proprietary
training contractor in Delaware stated it adjusted its fees to accommodate WIA
students by reducing the amount billed WIA students for its course of study from
$5,000 to $3,500. Public institutions also provided WIA students with discounts to
satisfy funding caps. The University of Delaware reduced course costs for WIA
students from $4,500 to $3,500, in response to the Board’s reduction of the ITA cap to
$3,500.


CONCLUSIONS

As WIA is approaching the end of its 5-year authorization period, it is still a work-
in-progress. Many of the problems we have discussed in this report are persistent
concerns also reported by other groups in past studies. ETA is attempting to help
develop solutions. Its efforts include:




 U.S. Department of Labor – Office of Inspector General                                   32
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



    •   Demonstration Grants, awarded in PY 2000, to help participating states and
        localities better manage ITA and ETP systems.

    •   An experimental study in six states evaluating approaches with the intention
        of providing other localities with best practices for managing ITA and ETP
        systems. Final results are not expected until 2005.

    •   An Eligible Training Provider List Work Group to developed guidance to
        assist program operators in overcoming commonly encountered obstacles to
        implementing ETP subsequent eligibility determinations.

Some states have made significant progress in implementing WIA's provisions.
However, other states' progress has been slow. While ETA can provide better
guidance and oversight to help ensure problems are remedied, we also believe some
of the most persistent and significant problems will not be adequately resolved
without legislative action. For example, training providers' and programs
administrators' concerns about violating FERPA’s privacy requirements could be
put to rest with a legislated exception.

We also believe the means prescribed to achieve the WIA's programs' objectives
should also be reexamined. WIA’s training provisions have proven difficult to
implement. The desire to ensure participants have information with which to make
informed decisions on the selection of training providers should be weighed against
the loss of choices participants may face because some providers are unwilling to
comply with WIA's performance reporting requirements. It is unfortunate if WIA
participants are denied access to training, particularly training available through
existing publicly supported institutions, because the schools are unwilling to serve
them.

Recently, the Secretary has proposed a variety of legislative changes to WIA, that
would address several of the most significant concerns this audit and other
evaluations have identified. Among them are streamlining administrative
requirements by combining the WIA Adult, WIA DW and Wagner-Peyser funding
into a single formula program, and allowing greater flexibility in shifting monies
among the Adult and DW programs.

The Secretary also proposes eliminating the “sequence of service” requirements;
individuals would be allowed access to services and training without Federally
mandated prerequisites. In addition, states would be given the authority to
determine what standards, information and data was required to determine training
providers' eligibility.



 U.S. Department of Labor – Office of Inspector General                                   33
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training implement
recommendations for changes and improvements in the ITA and ETP processes that
can be accomplished without legislative or regulatory changes. Where
congressional action is required, we recommend that the Assistant Secretary solicit
the Secretary's assistance in encouraging the Congress to enact appropriate
legislative changes. Specifically:

          •   Seek support for changes in WIA's provisions that will encourage service
              providers' participation without compromising the quality of training.
              Alternatives may include exempting training providers from subsequent
              eligibility determinations if they currently qualify for initial exemptions
              under WIA's provisions, and if their programs are accredited by a
              recognized authority. Programs of proprietary training providers could
              also be considered for exemption, if they are accredited.

          •   Endorse changes in WIA's provisions that reduce the performance
              reporting burden on providers, such as requirements that training
              providers report data on all students in a program.

          •   Encourage state and local governments to implement procedures that
              streamline reporting requirements for training providers, such as
              centralizing reporting of those providers serving multiple boards.

          •   Support amendments to FERPA or to WIA, as appropriate, that will
              eliminate uncertainty regarding liability for the release and allow for the
              use of participants’ personal identifying information for WIA
              performance reporting purposes.

          • Encourage state governments to periodically review course structures to
            ensure restrictions and limits imposed on training providers do not
            jeopardize the quality of courses offered




 U.S. Department of Labor – Office of Inspector General                                   34
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



            ETA’S RESPONSE TO THE DRAFT AUDIT REPORT


ETA agrees with our findings, and indicates they are consistent with many of the
problems identified in its own evaluations and other studies. ETA also commented
that it supports legislative proposals now being considered by the Congress that
would change WIA’s provisions to address many of the problems we have
discussed. (See the complete text of ETA’s response at Appendix 2).

As discussed in the Draft report, ETA reiterated that the declines in training
identified in the report, might be partially attributable to differences in the
definitions of training in the WIA and JTPA programs and the increased cost of
training participants under WIA

ETA also believes that the waivers the Secretary has granted under her current
authority, have provided states with much needed flexibility. The comments also
identify four legislative initiatives ETA views as critical to WIA reform. They
include consolidation of funding streams, increased coordination with other service
delivery agencies, elimination of confusion over WIA’s sequence of service
provisions and elimination of Federally-mandated ETP reporting requirements.




 U.S. Department of Labor – Office of Inspector General                                   35
Implementation of the Workforce Investment Act’s Training Provisions in Selected States



                           ANALYSIS OF ETA’S RESPONSE


Both OIG and ETA agree that systemic problems exist in some of WIA’s provisions.
Among the most severe are burdensome reporting requirements and inconsistencies
in interpretations of WIA’s sequence of services criteria.

We believe proposed legislative changes should help states and localities administer
WIA programs. ETA should clarify any existing misinterpretation as to when
training may be offered to eligible individuals, if the proposed legislation is not
enacted. We also believe a continual monitoring of participants’ training is essential
to ensure adequate training options remain available to WIA participants.




 U.S. Department of Labor – Office of Inspector General                                   36
                                                                                                                      ATTACHMENT A

              DEMOGRAPHICS OF WIA PARTICIPANTS SERVED AND TRAINED
                              IN SELECTED STATES
                                     PY 2000



                  Arizona            Delaware               Florida           Mississippi               Ohio                Texas                Totals
Attribute
               Partic.   Trainees   Partic.   Trainees   Partic.   Trainees   Partic.   Trainees   Partic.   Trainees   Partic.   Trainees   Partic.   Trainees
   Total
Participants   5,050      1,742      803        586      37,522 23,589        1,972      1,093     7,453      2,798     41,651 18,919 94,451 48,727

 Percentage              34.5%                73.0%                62.9%                55.4%                37.5%                45.4%                51.6%


  Disabled      299        92        78         62       1,615       979       327        188       221        153      1,170       524      3,710      1,998
 Percentage    5.9%      30.8%      9.7%      79.5%      4.3%      60.6%      18.9%     50.5%      3.0%      69.2%      2.8%      44.8%      3.9%      53.9%


 Minorities    3,002      1,011      433        309      22,728 12,847        1,361       817      2,185      1,602     28,687 13,401 58,396 29,987
 Percentage    59.4%     33.7%      53.9%     71.4%      60.6%     56.5%      69.0%     60.0%      29.3%     73.3%      68.9%     46.7%      61.8%     51.4%


  Females      3,169      1,233      665        462      21,368 13,253         820        674      3,683      2,706     25,670 11,515 55,375 29,843
 Percentage    62.8%     38.9%      82.8%     69.5%      56.9%     62.0%      41.6%     82.2%      49.4%     73.5%      61.6%     44.9%      58.6%     53.9%


<12th Grade    1,348       354       84         79       7,254      4,172      273        132       432        342      7,166      1,794     16,557     6,873
 Percentage    26.7%     26.3%      10.5%     94.0%      19.3%     57.5%      13.8%     48.4%      5.8%      79.2%      17.2%     25.0%      17.5%     41.5%


  * Poverty    1,651       808       784        578      18,208 10,378        1,136       705      3,003      2,502     25,680 12,917 50,462 27,888
 Percentage    32.7%     48.9%      97.6%     73.7%      48.5%     57.0%      57.6%     62.1%      40.3%     83.3%      61.7%     50.3%      53.4%     55.3%


 40+ Years     2,247       813       214        151      16,404 10,227         405        179      3,486      2,260     15,467     5,222     38,223 18,852
 Percentage    44.5%     36.2%      26.7%     70.6%      43.7%     62.3%      20.5%     44.2%      46.8%     64.8%      37.1%     33.8%      40.5%     49.3%



* Includes poverty level participants or persons who met the 70% Lower Living Standard Income Level (LLSIL)
                                                                  ATTACHMENT B


                   DISCUSSION OF THE
            METHODOLOGY USED TO COMPARE
     JTPA AND WIA PARTICIPANTS SERVED AND TRAINED


We wanted to compare the numbers of JTPA participants served and trained with
similar data for the WIA program, to determine if significant increases or decreases
had occurred. However, compatible data were not available.

We have attempted to estimate the numbers, in the states we visited. However, for a
variety of reasons, the numbers of participants we have identified as "served" and
"trained" in the WIA and JTPA programs are not wholly compatible and are not
intended as accurate counts. Rather, they are rough estimates that may provide an
indication of overall tends toward increases or decreases. Our methodology follows.

JTPA participants' data were obtained from SPIR, JTPA's national database, for PY
1998. PY 1998 JTPA data were chosen because it was the last full year of JTPA
activity for all states, including those states that were early implementers of WIA, in
PY 1999. PY 2000 WIA data were used because it was the only complete year of data
available to us for all states we visited.

The SPIR only captures data on participants that terminated from JTPA programs.
We have counted as the number served JTPA participants that terminated from
programs during PY 1998. The number of JTPA participants counted as trained
includes JTPA program participants who were identified in the SPIR as having been
trained (and terminated) during PY 1998.

We obtained data from each of the states management information systems on the
numbers of active WIA participants during PY 2000, and reduced it by the numbers
of JTPA participants "carried in" and included in some states' totals. We have
identified this count as WIA participants served. The numbers of WIA participants
trained was computed using each state's data on the numbers of participants
enrolled in training. As before, we reduced this count by the number of JTPA
participants carried in.

According to ETA representatives, a decline in WIA enrollments was expected,
because WIA does not require all persons to enroll in the program before receiving
basic services, as was the case under JTPA. Typically, only participants who receive
staff-assisted core services are required to register.
                                                                   ATTACHMENT B

One-Stop centers offer self-directed help to individuals, often without registration.
State One-Stop operators, such as State Employment Security Agencies (SESAs)
accustomed to funding basic labor exchange activities with Wagner-Peyser grant
funds, tend to provide WIA core and intensive services to individuals and give
credit for enrollment to programs other than WIA.

Boards we visited in both Delaware and Mississippi contracted with the SESA that
serve as One-Stop operators. Both States relied on Wagner-Peyser funds to pay for
nearly all WIA core or core and intensive services. Consequently, individuals
served with Wagner-Peyser funds who received core and intensive services, may not
have been reported as WIA enrollments.

In contrast, Arizona officials explained their one-stop centers capture participants as
WIA enrollments early in the registration process. As soon as a participant receives
staff assistance at a one-stop center, an enrollment code is entered for the individual.
Thus, more individuals are counted as WIA enrollments.

Mississippi officials reported they are making changes to their reporting systems
that should increase the number of individuals reported as WIA enrollments when
any service is provided that requires significant staff assistance.
                                                      ATTACHMENT C


              AVAILABLE FUNDS AND EXPENDITURES
                    WIA ADULT PROGRAM

                           PROGRAM YEAR 2000

                                                      PERCENTAGE OF
              AVAILABLE         EXPENDITURES         EXPENDITURES TO
                FUNDS                                AVAILABLE FUNDS

NATIONAL       $1,288,150,374        $741,963,220          58%

ARIZONA           17,100,697           10,769,110          63%
DELAWARE           3,091,318            2,460,369          80%
FLORIDA           57,262,704           42,644,369          74%
MISSISSIPPI       13,816,004            6,223,418          45%
OHIO              50,333,593           18,501,413          37%
TEXAS            109,248,342           77,045,425          70%


                          PROGRAM YEAR 2001

                                                      PERCENTAGE OF
              AVAILABLE         EXPENDITURES         EXPENDITURES TO
                FUNDS                                AVAILABLE FUNDS

NATIONAL       $1,540,574,077       $1,052,453,491         63%

ARIZONA           22,627,053           16,953,539          75%
DELAWARE           3,000,012            2,700,607          90%
FLORIDA           53,750,232           37,817,894          70%
MISSISSIPPI       22,641,305           12,754,063          56%
OHIO              76,513,647           46,865,800          61%
TEXAS            121,259,004           81,967,935          68%
                                                       ATTACHMENT D


              AVAILABLE FUNDS AND EXPENDITURES
              WIA DISLOCATED WORKER PROGRAM

                           PROGRAM YEAR 2000

                                                      PERCENTAGE OF
              AVAILABLE         EXPENDITURES         EXPENDITURES TO
                FUNDS                                AVAILABLE FUNDS

NATIONAL       $1,551,485,641        $769,180,286          50%

ARIZONA           12,841,492            6,440,351          50%
DELAWARE           2,192,931            1,705,386          78%
FLORIDA           63,218,700           43,770,716          69%
MISSISSIPPI       16,057,678            5,846,077          36%
OHIO              34,989,155           14,471,211          41%
TEXAS             99,332,308           61,163,615          62%


                          PROGRAM YEAR 2001

                                                      PERCENTAGE OF
              AVAILABLE         EXPENDITURES         EXPENDITURES TO
                FUNDS                                AVAILABLE FUNDS

NATIONAL       $1,991,541,273       $1,123,733,835         59%

ARIZONA           17,592,485           10,899,638          62%
DELAWARE           2,603,226            2,072,602          80%
FLORIDA           54,107,508           40,904,255          76%
MISSISSIPPI       39,164,644           13,505,583          34%
OHIO              52,775,687           28,599,806          54%
TEXAS             95,655,225           68,254,264          71%
                                                                              ATTACHMENT E
                           SUMMARY OF WIA WAIVERS
                              AT MARCH 5, 2003

WAIVER REQUEST: To extend initial training provider eligibility by waiving the 18-month
subsequent eligibility determination requirement
STATES               STATUS OF REQUESTS                                AMENDED DEADLINE
AL         Approved July 19, 2002                                         January 1, 2004
AZ         Decision Pending
CT         Approved September 12, 2002
IA         Approved October 8, 2002
ID         Approved July 19, 2002                                         June 30, 2004
IN         Approved January 21, 2003
KY         Approved April 17, 2002                                        January 1, 2004
ME         Decision Pending
MA         Approved October 8, 2002
MN         Approved February 15, 2002                                     January 1, 2003
MT         Approved June 21, 2002                                         June 30, 2004
NC         Approved July 19, 2002                                         June 30, 2004
ND         Decision Pending
NJ         Approved October 8, 2002
NM         Approved January 21, 2003
OH         Approved July 19, 2002                                         January 1, 2004
OR         Approved April 1, 2002                                         June 30, 2004
SC         Approved June 21, 2002                                         June 30, 2004
TN         Approved June 21, 2002                                         January 1, 2003
TX         Approved January 3, 2003
WI         Approved February 15, 2002                                     January 1, 2004
UT         Approved October 8, 2002
WAIVER REQUEST: To waive eligible training provider provisions for 1 year
STATES        STATUS OF REQUESTS                                   AMENDED DEADLINE
FL            Decision Pending                                                January 1, 2004
ME            Request withdrawn by State July 24, 2000
MS            Approved July 19,2002                                            June 30, 2003
WAIVER REQUEST: To waive the “all-student” reporting requirements for subsequent eligibility
determination
STATES                                       STATUS OF REQUESTS
HI            Instead, an extension of the initial period of provider eligibility was approved by
VT            waiving the 18-month requirement for subsequent eligibility
WAIVER REQUEST: To waive various performance standards for provider eligibility
STATES          PERFORMANCE STANDARDS                              STATUS
HI              State-level verification of local performance      Decision Pending
IL              Application of eligible training provider, ITA,    Waiver not needed - July 18, 2002
                and customer choice requirements for set-aside
                funds to serve incarcerated individuals
IN              17 core indicators of performance for WIA Title    Not approved. Inconsistent with
                I. Replace them with State-developed system of     WIA key reform principles
                measures
MN              Retroactively disregard PY 2000 performance        Decision Pending
                standards and credential rates
                                                                      ATTACHMENT F

           NUMBERS OF ELIGIBLE TRAINING PROVIDERS
                 AND APPROVED PROGRAMS
                     PY 2000 AND PY 2001



                                                                          Number of
                                        Number of ETPs               Approved Programs
                    Number
                      of                PY               PY              PY              PY
                    Boards             2000             2001            2000            2001

ARIZONA                16                141           167               1,000         1,097


DELAWARE                 1                41            38                 210          315



FLORIDA***                                                                           * Not
                       24                190           194               1,730      Available


MISSISSIPPI              6                33            92                 208              472



                                                                       ** Not
OHIO                     8               379           486            Available        4,657


TEXAS ***              28                308           287               4,422         3,539


* Florida was unable to provide the total number ETPs for PY 2001, but reportedly lost no
ETPs since PY 2000.
** Ohio did not track the number of ETPs during PY 2000.
***Florida and Texas implemented WIA in PY1999. Texas reported 335 ETPs and 7,666
approved programs. Florida was unable to provide the number of ETPs and approved
programs for PY 1999.
                                                                   APPENDIX 1

               OBJECTIVE, SCOPE AND METHODOLOGY


Objective

Our objective was to determine the impact of WIA training provisions on program
participants, particularly as related to ITA and ETP systems.

Scope and Methodology

To satisfy our audit objective, we reviewed WIA program activities in 6 states and a
total of 11 local WIBs, within the states. We attempted to obtain a mix of states in
various geographic areas with a wide variety of characteristics, including: states
with large populations involving many WIBs and those with small populations and
few WIBs; states with big urban metropolitan centers and those that were more
rural; and states that implemented WIA in PY 1999 and those that did not
implement WIA until PY 2000. We performed additional work at selected WIBs in
order to complete our objectives. The states and WIBs we selected are presented on
the following page of this APPENDIX.

Our audit focused on Adult and DW program activities that occurred in PY 2000,
(July 1, 2000 through June 30, 2001). States had the option of implementing WIA
provisions beginning in PY 1999; however, all states were required to implement the
provisions for PY 2000. Both Florida and Texas chose to implement WIA early. In
comparing activities among the states visited, we focused on PY 2000 data, because
it was both the first complete year of WIA activity in the majority of states we visited
and the most recent PY for which information was available when we began our
work.
                                                                         APPENDIX 1


                                   LOCATIONS VISITED
             State                Urban                      Rural
           Arizona            City of Phoenix             Gila Pinal
           Delaware           Delaware Board                 n/a*
           Florida            Panama City                 Chipola
           Mississippi        Hinds County                South Central MS
           Ohio               Montgomery County           Stark/Tuscarawas Counties
           Texas              WorkSource                  Heart of Texas
  * Delaware has only one Workforce Board that serves the entire State


We reviewed laws and regulations related to WIA, and procedures established for
managing ITAs and ETP certification at state and at local levels. Although this
report discusses certain problems that we identified during the course of our audit,
we did not review accounting or administrative controls over ITA for the purpose of
issuing an opinion on their adequacy.

We obtained the views of program operators and training providers on limitations
established for ITAs. Program operators and training providers were interviewed to
obtain their views regarding the adequacy of procedures. We also interviewed
officials at the state and local boards responsible for administering the ITA and ETP
systems.

We reviewed 120 files of participants who received training for compliance with
program requirements and assessed the training options provided participants. For
another 60 participants who had received only core or core and intensive services,
we reviewed program documentation, and where possible, interviewed participants.

We interviewed 20 training providers in 5 of the 6 states selected. We were
successful in contacting only 16 training providers in the State of Mississippi.
Consequently, we were successful in interviewing 116 training providers on the
states’ ETP lists and obtained their views on WIA program requirements.

The results of our review of participant files and interviews with training providers
are an attempt to identify indicators of problems with the implementation of WIA’s
ITA and ETP systems. The results we obtained from our samples reflect only rates
of occurrence in the items reviewed. The sample results are not intended to be
statistically projected to an individual state, across the states visited, or to the
Nation.
                                                               APPENDIX 1

We attempted to obtain demographics on WIA Adult and DW program participants
from Workforce Investment Act Standardized Record Data (WIASRD), ETA's
nationwide system for capturing WIA participant data. We attempted to obtain
comparable data for Adult and DW program participants who received training
under JTPA during PY 1998, to determine the characteristics of the participants
utilizing the program, and to determine changes in the numbers of participants who
received training.

Complete information was not available in WIASRD, because all states had not
submitted the data. Consequently, we requested each state we visited provide us
information on WIA participants, in order to determine WIA's impact on the
number of participants who were enrolled and received training. JTPA participants'
data was obtained from the PY 1998 JTPA national database, the Standardized
Program Information Report (SPIR). We estimated the numbers of WIA and JTPA
participants served and trained from this information. For a discussion of
limitations on the data and cautions on its use, please see Attachment B of this
report.

Our fieldwork began April 2002 and continued through October 2002. The audit
was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States.
                                                                 APPENDIX 2


                   THE COMPLETE TEXT OF ETA’S
               RESPONSE TO THE DRAFT AUDIT REPORT




The entire text of ETA’s comments to the draft audit report follows this page.
